Report No. D-2008-101          June 6, 2008




      General Controls Over the Standard
     Accounting, Budgeting, and Reporting
               System (SABRS)
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CIO                   Chief Information Office
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DITSCAP               Department of Defense Information Technology Security
                         Certification and Accreditation Process
FISMA                 Federal Information Security Management Act
IT                    Information Technology
NIST                  National Institute of Standards and Technology
OMB                   Office of Management and Budget
PMO                   Program Management Office
SABRS                 Standard Accounting, Budgeting, and Reporting System
TASO                  Terminal Area Security Officer
USMC                  United States Marine Corps
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                            June 6,2008


MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                   SERVICE
               NAVAL INSPECTOR GENERAL
               ASSISTANT DEPUTY COMMANDANT FOR PROGRAMS AND
                  RESOURCES (FISCAL), UNITED STATES MARINE CORPS


SUBJECT: General Controls Over the Standard Accounting, Budgeting, and Reporting
         System (SABRS) (Report No. D-2008-101)


       Weare providing this report for review and comment. We considered comments from
the Defense Finance and Accounting Service when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Defense Finance and Accounting Service comments were partially responsive. We request
additional comments on Recommendations A.1.a, A.1.d, A.2.a, A.2.b, A.2.d, A.2.e, B.1.a,
B.1.b, B.2.b, B.2.c, B.2.d, B.2.e., B.2.f, B.3, B.4.b, and C. Therefore, we request that the
Chief Information Officer, Defense Finance and Accounting Service provide comments by
July 7,2008.

        If possible, please send management comments in electronic format (Adobe Acrobat
file only) to AudDFS@dodig.mii. Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the / Signed / symbol in place of
the actual signature. If you arrange to send classified comments electronically, they must be
sent over the SECRET Internet Protocol Router Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed to
Edward A. Blair at (216) 706-0074 ext. 226 or Ms. Cecelia M. Ball at (816) 926-8501 ext. 222
(DSN 465-8501). The team members are listed inside the back cover. See Appendix C for
the report distribution.



                                    ..~ a,!r)~
                                  Patricia A. Marsh, CPA
                                Assistant Inspector General
                             Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2008-101                                                      June 6, 2008
  (Project No. D2006-D000FC-0068.000)

             General Controls Over the Standard Accounting,
               Budgeting, and Reporting System (SABRS)

                                Executive Summary

Who Should Read This Report and Why? DoD personnel who manage and use the
Standard Accounting, Budgeting, and Reporting System (SABRS) should read this
report. This report discusses whether the SABRS general controls were adequately
designed and operating effectively.

Background. SABRS is the accounting system used by the Defense Finance and
Accounting Service Kansas City to standardize accounting, budgeting, and reporting
procedures for the United States Marine Corps (USMC) general fund. The USMC
reported $27,155 million in assets and $2,255 million in liabilities on its FY 2006
Balance Sheet. This audit was conducted to determine whether the Defense Finance and
Accounting Service Kansas City ensures general control standards issued by the Office of
Management and Budget, the National Institute of Standards and Technology, and DoD
were implemented and operating effectively for SABRS.

Results. Controls over SABRS security management and operations are ineffective
because the Defense Finance and Accounting Service Chief Information Officer did not
assign clear security responsibilities to the SABRS Program Management Office
(finding A), the SABRS Program Management Office did not provide assurance that
SABRS security was effective because it did not coordinate with all responsible parties
(finding B), and Defense Finance and Accounting Service Accounting Services-Marine
Corps and Defense Information Systems Agency did not have an approved Service Level
Agreement because Defense Finance and Accounting Service did not sufficiently
coordinate with the Defense Information Systems Agency to complete the approval
process (finding C). See the Findings section of the report for the detailed
recommendations.

Management Comments. The Director, Information and Technology, Defense Finance
and Accounting Service concurred with all recommendations except one. We considered
some corrective actions responsive to the intent of the recommendations. No further
comments are required for those recommendations. We reiterated other
recommendations to the Chief Information Office, Defense Finance and Accounting
Service and the Program Management Office because comments were nonresponsive and
partially responsive.
We request that the Chief Information Office, Defense Finance and Accounting Service
and the Program Management Office comment on the final report by July 7, 2008. See
the Findings section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                2

Findings
     A. Standard Accounting, Budgeting, and Reporting System Security
          Management                                                      3
     B. Program Management Office Security Coordination                  15
     C. Defense Finance and Accounting Service and Defense Information
          Systems Agency Service Level Agreement                         22

Appendixes
     A. Scope and Methodology                                            24
     B. Security Plan Comparison                                         26
     C. Report Distribution                                              32

Management Comments
     Defense Finance and Accounting Service                              35
Background

    The Chief Financial Officers Act of 1990 (Public Law 101-576), as amended,
    mandates that agencies prepare and conduct audits of financial statements. Under
    Secretary of Defense (Comptroller) guidance implementing the Chief Financial
    Officers Act of 1990, as amended, requires the United States Marine Corps
    (USMC) complete stand-alone General Fund and Working Capital Fund financial
    statements.

    The Defense Finance and Accounting Service (DFAS) Kansas City is responsible
    for reporting the USMC financial statement data to the Department of the Navy.
    These financial statement data are ultimately included in the DoD consolidated
    financial statements. The USMC relies on DFAS Kansas City’s assurances
    regarding the controls used to prepare the USMC financial reports and its
    financial statements. The USMC reported $27,155 million in assets and
    $2,255 million in liabilities on its FY 2006 Balance Sheet.

    The Standard Accounting, Budgeting, and Reporting System (SABRS) is a
    computer-based information system designed to standardize accounting,
    budgeting, and reporting procedures for all general funds accounted for by the
    USMC. SABRS produces general data to support automated and auditable
    financial statements. It facilitates the preparation of financial statements and
    other financial reports in accordance with Federal accounting and reporting
    standards.

    DFAS Kansas City, Accounting Systems Branch owns and manages SABRS. As
    the owner, it is required to review and maintain the SABRS security policy. The
    USMC Fiscal Director is the functional sponsor. As a functional sponsor, USMC
    uses SABRS to record and account for financial data that it owns and processes.
    DFAS Technology Service Organization developed and maintains the SABRS
    system. The System Management Center, Mechanicsburg, Pennsylvania,
    provides SABRS processing support, and the System Management Center, St.
    Louis, Missouri, provides SABRS hardware support.

    Federal agencies, Congress, and the public rely on computer-based information
    systems to provide data about agency programs, manage Federal resources, and
    report program costs and benefits. The Federal Information Security
    Management Act of 2002 (FISMA) assigns specific responsibilities to Federal
    agencies, the National Institute of Standards and Technology (NIST), and the
    Office of Management and Budget (OMB) to strengthen information system
    security.

    FISMA requires the head of each agency to implement policies and procedures to
    cost-effectively reduce Information Technology (IT) security risks to an


                                         1
    acceptable level. Additionally, the head of each agency is to appoint a Chief
    Information Officer (CIO) responsible for developing and maintaining an
    agency-wide information security program. Agency-wide information security
    programs should include subordinate plans for providing adequate information
    security for networks, facilities, and systems or groups of information systems, as
    appropriate. The DFAS CIO has tasked the SABRS PMO with ensuring adequate
    information security for SABRS.

    FISMA directs NIST to develop IT security standards and guidelines and directs
    each agency to implement an information security program. FISMA requires that
    the OMB oversee IT security policies and practices across all Federal agencies.
    NIST works collaboratively with OMB to develop standards and guidelines to
    achieve cost-effective security and privacy of sensitive information in Federal
    computer systems. Agencies, like DFAS, must follow NIST standards and
    guidance for non-national security programs and systems.

    The Office of the Assistant Secretary of Defense directed the Defense-Wide
    Information Systems Security Program to create standardized requirements and
    processes for accreditation of computers, systems, and networks. DoD
    Instruction 5200.40 established the DoD Information Technology Security
    Certification and Accreditation Process (DITSCAP). The DITSCAP Manual
    (DoD 8510.1-M) presents the detailed requirements for completing the
    certification and accreditation process.

    Computer-related controls help ensure the reliability, confidentiality, and
    availability of automated information. General controls are the policies and
    procedures that apply to an entity’s information systems and help ensure their
    proper operation. Primary objectives for general controls include safeguarding
    data, protecting computer application programs, preventing system software from
    unauthorized access, and ensuring continued computer operations in case of
    unexpected interruptions. The effectiveness of general controls is a significant
    factor in determining the effectiveness of application controls. Without effective
    general controls, application controls may be rendered ineffective by
    circumvention or modification. General and application controls become more
    critical when functions are transferred to other DFAS locations as DFAS Kansas
    City is scheduled to close under the Base Realignment and Closure.


Objectives

    Our overall audit objective was to assess the integrity, confidentiality, and
    availability of data reported by SABRS. Specifically, we determined whether the
    general controls over SABRS were adequate. We did not evaluate the application



                                         2
controls over SABRS because of the lack of general controls identified. See
Appendix A for a discussion of the scope and methodology.




                                    3
            A. Standard Accounting, Budgeting, and
               Reporting System Security
               Management
            Controls over SABRS security management and operations were
            ineffective because the CIO did not assign clear security responsibilities to
            the Program Management Office (PMO). Specifically:

                   •   the SABRS security management structure did not ensure
                       proper segregation of duties and security responsibilities;

                   •   the CIO did not clearly delegate the authority and duty to
                       responsible parties to develop approved policies and
                       procedures for SABRS IT security operations;

                   •   the CIO did not clearly assign an office the responsibility for
                       the IT security and control requirements; and

                   •   software waivers and license agreements were not maintained
                       to assure personnel that only authorized software was loaded
                       on computers which can be used to access SABRS.

            Ineffective controls over SABRS security management and operations
            increase the vulnerability of SABRS IT resources and are detrimental to
            an effective information security program.


Proper Segregation of Duties and Responsibility

     The SABRS security management structure lacks proper segregation of duties and
     security responsibilities. The CIO did not ensure that the Terminal Area Security
     Officer (TASO) duties were independent from operations. The CIO did not
     include clear security responsibilities in the PMO personnel job expectations.

     TASO Segregation of Duties. TASOs create and assign user IDs and set user
     privileges for SABRS. TASOs report to DFAS operations instead of to a separate
     DFAS office. The current reporting hierarchy has TASOs reporting to DFAS
     operations instead of to a separate function outside of operations. DFAS
     attempted to segregate duties when it moved PMO reporting to the CIO, but the
     TASOs, who had reported to the PMO, remained in DFAS operations. This
     structure allows security controls to be circumvented to provide certain services
     to customers, including to USMC. For example, TASOs can grant access rights



                                          4
     to personnel that allow them to bypass or change security controls. NIST advises
     that computer security embedded in operations lacks independence, has minimal
     authority, receives little management attention, and has few resources.

     Assigned Security Responsibilities. We reviewed the performance plans for the
     PMO personnel to determine each employee’s specific security responsibilities.
     The performance plans for PMO personnel did not have security responsibilities
     included as part of their job expectations from the CIO. According to NIST, the
     assignment of security responsibilities should be in writing to ensure that a
     system’s application has adequate security. It would be appropriate to use
     performance plans to formally communicate the security responsibilities to PMO
     personnel.


Security Policies and Procedures

     Controls over SABRS security management and operations are ineffective
     because the CIO did not clearly delegate the authority and duty to responsible
     parties to develop approved policies and procedures for SABRS IT security
     operations. Policies and procedures did not exist or were not formally approved
     for access authorizations, periodic reviews of access authorizations, and data
     encryption. Management’s requirements or actual intent is not known and cannot
     be enforced if the policies and procedures have not been formally approved.

     Access Authorizations. The PMO, as a component of the CIO, provided desk
     procedures, but not formal policies, for granting system access authorizations.
     The desk procedures were not properly approved by DFAS management.
     According to NIST, approved policies are needed to provide sufficient
     information or direction to be used in establishing an access control list. In
     addition, the Government Accountability Office Federal Information System
     Controls Audit Manual states management is responsible for developing the
     detailed policies, procedures, and practices to fit an agency’s operations.
     Management should also ensure these policies are built into and are an integral
     part of IT security operations. Documented and approved access control policies
     will make these operations substantially easier to follow and will improve system
     access control.

     Periodic Reviews of Access Authorizations. The PMO, as a component of the
     CIO, provided desk procedures, but not formal policies, for periodic reviews of
     access authorizations. The desk procedures were not properly approved by DFAS
     management, and they did not provide for periodic review of access rights for
     each user. According to NIST, it is necessary to periodically review user
     accounts on a system to ensure proper authorizations and manage system access.
     Application managers (and data owners, if different) should review all access


                                         5
    levels of all application users every month and sign a formal access approval list,
    which will provide a written record of the approvals. The PMO is often the only
    individual in a position to know current access requirements.

    Informal policies and procedures lack the weight of authority provided by the
    written approval of a senior management official, the CIO. Management
    officials’ approval provides clear evidence to employees and contractors that
    management is in agreement with the stated policies and procedures and that
    adherence is required.

    Effective administration of users' access is essential to maintaining system
    security. User account management focuses on identification, authentication, and
    access authorizations. This process should include periodic verification of user
    accounts and access authorizations. User accounts must also be timely changed
    for modification or removal of access and associated issues for employees who
    are reassigned, promoted, terminated, or who retire.

    Data Encryption. The PMO, as a component of the CIO, could not identify its
    data encryption procedures. PMO personnel stated encryption is not under their
    direct control so they do not believe they need to know this information.
    According to NIST, an organization should use encryption to protect the
    confidentiality of remote access sessions. During our audit, NIST was updated
    (December 2006); however, the requirement to use encryption did not change and
    still applies. The requirements for encryption and remote access policies are
    critical because they address the security of data transmission. The PMO has
    primary responsibility for the security of SABRS. It should be aware of the
    encryption used for their application.


SABRS Security and Control Requirements

    Controls over SABRS security management and operations are ineffective
    because the CIO did not clearly assign responsibility for the IT security and
    control requirements. Specifically, the SABRS security environment did not
    include:

           •   a complete risk assessment;

           •   an adequate security plan, also called a System Security Authorization
               Agreement;

           •   identification of information and resources critical to the operations of
               SABRS in its contingency plan;




                                         6
                   •   implementation of intrusion detection and incident response
                       procedures; and

                   •   assurance that users completed required security awareness training.

           Risk Assessments. The PMO, as a component of the CIO, did not complete a
           required risk assessment because the CIO did not clearly assign security
           responsibilities to the PMO. Although the PMO identified some potential risks, it
           did not perform a risk assessment of natural threats or rank the probability of
           identified threats occurring, as required by NIST, OMB, and DoD Instructions.

           “Department of Defense Information Technology Security Certification and
           Accreditation Process (DITSCAP) Application Manual,” July 31, 2000, states:

                   The SSAA 1 should clearly state the nature of the threat that is expected
                   and wherever possible, the expected frequency of occurrence. Generic
                   threat information is available but it must be adapted to clearly state the
                   expected threats to be encountered by the system. DITSCAP also
                   requires the risk analysis to identify appropriate cost-effective
                   countermeasures to mitigate the risk.

           The PMO did not adequately complete the risk assessment and, therefore, did not
           include appropriate countermeasures in its security plan. DoD Instruction 8500.2
           requires agencies to ensure that DoD Component-owned or controlled DoD
           information systems are assessed for information assurance vulnerabilities on a
           regular basis, and that appropriate information assurance solutions are
           implemented to eliminate or otherwise mitigate identified vulnerabilities.

           Without adequate risk assessments and appropriate countermeasures, the SABRS
           application could be at risk for a security event (for example, flood, loss of power,
           or intrusion) to occur that cannot be promptly mitigated. Ultimately, SABRS
           could be unable to perform its mission of financial accounting and reporting for
           the USMC.

           Security Plans. Although the PMO prepared a security plan for SABRS, it did
           not conform to NIST, OMB, and DITSCAP standards. Of the 65 sections in the
           2003 security plan, 26 sections did not comply with standards; of 65 sections for
           the 2006 security plan, 27 did not comply with standards. Specific areas of
           noncompliance are listed in Appendix B. In addition, the 2003 security plan was
           out of date. A major modification to SABRS was completed in October 2005, but
           the PMO waited until May 2006 to update the security plan. This met the 3-year
           minimum update, but it did not meet the NIST requirement to update the security
           plan when a major modification was completed on the system. Management
           authorizes a system to process information or to operate based on the security
1
    The SSAA (System Security Authorization Agreement) is the Security Plan.



                                                       7
plan when completing the certification and authorization process. Authorizing a
system to process information provides an important quality control, and, by
authorizing processing in a system, the manager accepts its associated risks.
Because the security plan for SABRS was not up to date, management may be
unaware of the risks they are accepting within SABRS when certification and
authorization is completed.

Contingency Planning. The SABRS contingency plan did not define the
information resources criticality in accordance with NIST guidance and DoD
Instruction 8500.2. Both standards require the identification of mission and
business essential functions for priority restoration planning along with all assets
supporting mission or business essential functions.

The PMO provided the contingency plan and results of testing performed. The
criticality of data and business essential functions were not identified as part of
the plan. Contingency plan testing identified the users’ inability to obtain remote
access to the contingency site. Remotely accessing the contingency site could be
critical during an emergency or system disruption.

Intrusion Detection and Incident Response Procedures. The PMO, as a
component of the CIO, provided policies and procedures to employees for
reporting intrusions; however, the policies and procedures did not address how
monitoring within SABRS detects security violations. NIST recommends a
baseline level of logging and auditing on all systems. That is, all systems should
have a minimum level of recording and reviewing of all system activity.
Furthermore, NIST recommends all critical systems have a higher baseline level.
The logs frequently provide value during incident analysis, particularly if auditing
is enabled. The PMO did not have procedures established for monitoring,
through logging and auditing, for SABRS to detect security violations.

SABRS is considered a major application, and according to DoD
Instruction 8500.2 major applications require intrusion detection systems. The
DoD Instruction requires an incident response plan that identifies the responsible
Computer Network Defense Service Provider, defines reportable incidents,
outlines a standard operating procedure for incident response, identifies user
training, and establishes an incident response team. The plan should be exercised
at least annually. The PMO did not have an intrusion detection system as part of
an incident response plan.

Application-level audit trails should record user activities, such as opening and
closing data files; reading, editing, and deleting records or fields; and printing
reports. Without this security control, security violations could occur within
SABRS that would not be detected, investigated, or corrected.




                                      8
    Security Awareness Training. The PMO did not verify that all SABRS users
    attended the required annual computer security awareness training. FISMA
    requires each agency to develop, document, and implement an agency-wide
    information security program that includes security awareness training. This
    training applies to all personnel, contractors and other users of information
    systems that support the operations and assets of the agency. Additionally, DoD
    and OMB require employees receive mandatory periodic training. NIST
    standards, which are directed by OMB and are considered best practices, require
    annual training for all users.

    An effective IT security program requires significant attention be given to
    training IT users on security policy, procedures, and techniques. We compared an
    incomplete list of SABRS users to a list of employees who attended annual IT
    security training and determined that 2,946 of 3,148 SABRS users were not
    identified as having completed the required training. Because the PMO did not
    verify that SABRS users completed the required IT security training, SABRS is
    vulnerable to greater security risk.


Software Waivers or License Agreements

    DFAS Technology Services Organization, as a component of the CIO, did not
    maintain waivers or license agreements for selected software loaded on their
    computers. The CIO did not clearly assign those security responsibilities to the
    Technology Services Organization. Waivers or license agreements authorize the
    software for use. Unauthorized software could degrade SABRS processing.

    DFAS Technology Services Organization was unable to provide waivers or
    license agreements for 8 of 12 auditor sampled software programs. DFAS
    Instructions require that only software that is part of the DFAS standard suite of
    software may be loaded onto a Government computer. All other software must be
    approved for installation in writing by the DFAS Technology Services
    Organization. The DFAS CIO should require that the Technology Services
    Organization maintain software waivers and license agreements. These waivers
    and license agreements provide assurance that only authorized software is
    operating on DFAS computers.




                                        9
Recommendations, Management Comments, and Audit
  Response

           A.1 We recommend the Chief Information Officer, Defense Finance and
           Accounting Service:

                   a. Separate the Terminal Area Security Officer functions from
           Defense Finance and Accounting Service Operations to ensure segregation of
           duties.

           Management Comments. The Director, Information and Technology, DFAS 2
           nonconcurred. He stated that TASOs 3 assist in implementing information
           assurance provisions for local users and systems so they have to be physically
           located in the same work area or organization as the users. He added that system
           access procedures involve multiple roles and people, all of which provide an
           appropriate measure of segregation of duties.

           Audit Response. The Director, Information and Technology, DFAS
           nonconcurred and the comments were nonresponsive. We recommended that the
           TASO functions be separated from operations to ensure segregation of duties.
           We do not agree that DFAS provides the appropriate measure of segregation of
           duties between TASOs and operations. TASO functions should not be embedded
           in DFAS Operation’s chain of command regardless of where the TASOs are
           physically located.

           We request that the Director, Information and Technology, DFAS provide the
           corrective actions taken to segregate TASO functions from operations and the
           associated implementation dates.

                   b. Develop performance plans that:

                         (1) Incorporate security duties as performance measurements
           for personnel with security responsibilities, including but not limited to the
           Program Management Office, and

                         (2) Management can use to evaluate personnel and hold them
           accountable for security operations.

           Management Comments. The Director, Information and Technology, DFAS
           concurred. He explained that the requirement to develop performance plans that
           incorporate security duties as performance measurements for personnel with
           security responsibilities will be added to the DFAS Information Assurance
           Workforce Improvement Program. The estimated completion date for this action
           is September 30, 2008.

2
    Defense Finance and Accounting Service (DFAS).
3
    Terminal Area Security Officer (TASO).



                                                     10
           Audit Response. Comments from the Director, Information and Technology,
           DFAS are responsive and no additional comments are required.

                   c. Identify and clearly delegate to specific offices the responsibility for
           establishing and executing policy and procedural authorities over Standard
           Accounting, Budgeting, and Reporting System information technology
           security operations.

           Management Comments. The Director, Information and Technology, DFAS
           concurred. The Director, Information and Technology, DFAS stated that he
           updated DFAS 8500.1-R, Information Assurance, November 2007. This updated
           policy assigns clear security responsibilities to program managers, system
           managers, system information assurance managers, site information assurance
           managers, and other security officials.

           Audit Response. Comments from the Director, Information and Technology,
           DFAS are responsive and no additional comments are required.

                 d. Direct applicable offices to create, document, implement, and
           approve policies and procedures in accordance with National Institute of
           Standards and Technology, DoD, and Government Accountability Office
           guidance to address:

                        •   access authorizations,

                        •   periodic reviews of access authorizations,

                        •   data encryption, and

                        •   detecting and investigating security violations and activities.

           Management Comments. The Director, Information and Technology, DFAS
           concurred.

           The Director, Information and Technology, DFAS described the procedures that
           DFAS uses for access authorizations and periodic review of access authorizations.
           He explained that an automated process identifies monthly ACIDs 4 that have
           SABRS 5 access. A systems task documents the validation, showing access
           identifications and entries that were removed. He added that the SABRS PMO 6 is
           notified of the monthly validation. He also stated that all ACIDs are reviewed
           when DFAS receives a request for SABRS access.

           For data encryption, the Director, Information and Technology, DFAS stated that
           all relevant requirements were identified in the System Security Authorization

4
    A form of access identification, known as ACessor Identification (ACID).
5
    Standard Accounting, Budgeting, and Reporting System (SABRS).
6
    Program Management Office (PMO).



                                                     11
           Agreement for SABRS with additional requirements identified in the DITSCAP 7
           based System Security Authorization Agreement. He stated that procedures do
           not need to be developed as other entities implement the inherited controls.

           The Director, Information and Technology, DFAS stated that baseline controls for
           detecting and investigating security violations are in the System Security
           Authorization Agreement and that the SABRS incident response plan is in
           Appendix K of the System Security Authorization Agreement. He added that the
           appropriate DISA 8 and DFAS Computer Emergency Response Teams conduct
           investigations and each has its own documentation procedures.

           Audit Response. Comments from the Director, Information and Technology,
           DFAS are partially responsive.

           Although the Director, Information and Technology, DFAS described the
           procedures DFAS uses for access authorizations and review of access
           authorizations, he did not identify the approved policy that the procedures
           implement

           We disagree that the data encryption requirements are identified in the System
           Security Authorization Agreement for SABRS. The requirements were implied in
           checklists instead of formally stated in the System Security Authorization
           Agreement. Although the data encryption requirements were inherited, the PMO,
           as a component of the CIO, 9 has primary responsibility for the security of
           SABRS. Therefore, it should be aware of the encryption used for their
           application. The Director, Information and Technology, DFAS did not provide
           encryption procedures.

           We disagree that the controls for detecting and investigating security violations
           are stated in the System Security Authorization Agreement. Appendix K of the
           System Security Authorization Agreement does not include an incident response
           plan that identifies the responsible Computer Network Defense Service Provider,
           defines reportable incidents, outlines a standard operating procedure for incident
           response, identifies user training, and establishes an incident response team as
           required by regulation. Appendix K states only that users must immediately
           report all Information Assurance-related events and potential threats and
           vulnerabilities involving a DoD information system to the appropriate
           Information Assurance Officer.

           We request that the Director, Information and Technology, DFAS create,
           document, implement, and approve policies and procedures in accordance with
           NIST, 10 DoD, and Government Accountability Office guidance to address access
           authorizations, periodic reviews of access authorizations, data encryption, and
           detecting and investigating security violations and activities.

7
    Department of Defense Information Technology Security Certification and Accreditation Process
    (DITSCAP).
8
    Defense Information Systems Agency (DISA).
9
    Chief Information Officer (CIO).
10
     National Institute of Standards and Technology (NIST).



                                                     12
       e. Provide training to Defense Finance and Accounting Service
Kansas City personnel regarding DoD and Defense Finance and Accounting
Service license agreements and waivers.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that software licensing requirements are part of the
mandatory Information Assurance awareness training provided to all DFAS
information technology users. DFAS also broadcasted educational information
related to software piracy DFAS wide and posted the information on its ePortal.

Audit Response. Comments from the Director, Information and Technology,
DFAS are responsive and no additional comments are required.

       f. Maintain license agreements and waivers for software to ensure
only authorized software is present on the Defense Finance and Accounting
Service computer system.

Management Comments. The Director, Information and Technology, DFAS
concurred. The requirement to maintain license agreements and waivers is stated
in DFAS 8400.1-R, Information Technology. He stated that DFAS will initiate a
review of all installed software to confirm that all workstations comply with
software licensing agreements. The estimated completion date for this action is
September 30, 2008.

Audit Response. Comments from the Director, Information and Technology,
DFAS are responsive and no additional comments are required.

A.2. We recommend the Chief Information Officer, Defense Finance and
Accounting Service clearly assign security responsibilities to the Program
Management Office and direct that office to comply with National Institute
of Standards and Technology, Office of Management and Budget, and DoD
requirements. Specifically,

        a. Perform a risk assessment of Standard Accounting, Budgeting, and
Reporting System at least every 3 years or when a major change occurs.
This risk assessment should include identifying risks, the likelihood of the
identified risks, and appropriate cost-effective countermeasures to mitigate
the risks.

Management Comments. The Director, Information and Technology, DFAS
concurred. He explained that when DoD Instruction 8500.2 was issued
subsequent to the DITSCAP manual, the required threat analysis, cited in the
report as the basis for this recommendation, was substantially altered. DoD
Instruction 8500.2 negated the mandatory requirement to conduct a separate
threat and risk assessment for each system. DITSCAP has since been replaced
with the Defense Information Assurance Certification and Accreditation Process,
which does not require a threat analysis as part of the certification and
accreditation process.



                                   13
Audit Response. Comments from the Director, Information and Technology,
DFAS are partially responsive. We realize DITSCAP has been replaced with the
Defense Information Assurance Certification and Accreditation Process. The
assessment of natural threats, as a possible risk, is not addressed in the Defense
Information Assurance Certification and Accreditation Process. Therefore, we
applied guidance identified in NIST. NIST recommends that information on the
probability of natural threats impacting the system be readily available and
appropriate countermeasures for those threats be identified.

We request that the Director, Information and Technology, DFAS perform a risk
assessment that includes identifying risks, the likelihood of the identified risks,
and appropriate cost-effective countermeasures to mitigate the risks.

       b. Prepare and document a security plan.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that the last SABRS security plan was completed on June 9,
2006. He added that DFAS will complete a new security plan as part of the
DFAS corporate transition to the Defense Information Assurance Certification
and Accreditation Process. The required date for completion is June 30, 2008.

Audit Response. Comments from the Director, Information and Technology,
DFAS are partially responsive. The security plan should incorporate NIST,
Office of Management and Budget, and DoD requirements. We request that the
Director, Information and Technology, DFAS review and comment how its
security plan meets NIST, Office of Management and Budget, and DoD
requirements.

       c. Identify the critical data and resources that support Standard
Accounting, Budgeting, and Reporting System. The critical data and
resources should be used to identify recovery priorities. This information
should be documented in the Standard Accounting, Budgeting, and
Reporting System contingency plan.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that DFAS annually updates the SABRS contingency plan.
DFAS most recently updated and tested the contingency plan on November 7,
2007.

Audit Response Comments from the Director, Information and Technology,
DFAS are responsive and no additional comments are required.

       d. Prepare an intrusion detection policy for the Standard Accounting,
Budgeting, and Reporting System, including who is responsible for
monitoring intrusion detection. The policy should address the recording and
auditing of users’ activities and intrusion incidents.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that intrusion detection and monitoring requirements are
included in the System Security Authorization Agreement as part of the DoD


                                     14
           Instruction 8500.2 baseline controls. DISA, DFAS, and USMC 11 personnel
           implement and perform intrusion detection for SABRS operations at their own
           user sites.

           Audit Response. Comments from the Director, Information and Technology,
           DFAS are partially responsive. Application-level audit trails should record user
           activities, such as opening and closing data files; reading, editing, and deleting
           records or fields; and printing reports. DFAS, as the system owner, is ultimately
           responsible for these functions. They are not controlled by DISA. We request that
           the Director, Information and Technology, DFAS prepare an intrusion detection
           policy for SABRS that specifically addresses recording and auditing user
           activities and intrusion incidents.

                  e. Ensure that all Standard Accounting, Budgeting, and Reporting
           System users have attended annual computer security awareness training
           and implement a method to verify that all users are adequately completing
           the required training.

           Management Comments. The Director, Information and Technology, DFAS
           concurred. He stated that DFAS is managing and tracking the completion of
           information assurance awareness training for its own users using an automated
           method. USMC maintains its own documentation of the information assurance
           awareness training for SABRS users.

           Audit Response. Comments from the Director, Information and Technology,
           DFAS are partially responsive. Because DFAS owns SABRS, the PMO should
           be aware of all users that have completed security awareness training. In
           addition, DFAS should periodically verify that all users, including non-DFAS
           users, annually complete the required training. We request that the Director,
           Information and Technology, DFAS document how it ensures that all SABRS
           users have attended annual computer security awareness training and implement a
           method to verify that all users are adequately completing the required training.




11
     United States Marine Corps (USMC).



                                               15
           B. Program Management Office Security
              Coordination
           The PMO did not provide assurance that SABRS security was effective
           because it did not coordinate with all parties responsible for security over
           SABRS. Specifically, the PMO did not:

                  •   provide documentation that proved the SABRS user passwords
                      were in accordance with Joint Task Force Global Networks
                      Communications Tasking Order 06-02 requirements,

                  •   identify general support system security controls implemented
                      by other responsible parties,

                  •   provide an accurate list of all TASO account holders,

                  •   provide documentation that proved SABRS acceptance testing
                      was completed, and

                  •   prevent unauthorized software from being introduced to the
                      SABRS environment.

           As a result, the PMO cannot ensure an effective security control
           environment exists for SABRS.


SABRS User Passwords

    The PMO did not provide documentation that proved SABRS user passwords
    were in accordance with the requirements in the Joint Task Force Global
    Networks Communications Tasking Order 06-02 because, PMO personnel stated,
    this was outside of their direct control. They stated Defense Information Systems
    Agency (DISA) set the password parameters; therefore, they did not need to know
    this information. The Tasking Order states that passwords have to meet the
    following requirements.

           •   Passwords must be set to a minimum of nine characters.

           •   Passwords must contain a mix of at least two lowercase letters, two
               uppercase letters, two numbers, and two special characters.

           •   Passwords must be changed every 60 days.

           •   Password history must be set to a minimum of five.


                                        16
           •   Unsuccessful logon attempt counter must be set to three with a counter
               reset of no less than 60 minutes. This allows no more than two
               unsuccessful logon attempts within a 60-minute period.

           •   After the third unsuccessful logon attempt, the account lockout
               duration must be set to “forever,” requiring the account to be unlocked
               by a system administrator.

    Passwords are a technical measure that prevents unauthorized people (or
    unauthorized processes) from entering a computer system. Passwords are also
    critical to computer security because they are the basis for most types of access
    control and for establishing user accountability. Because the PMO is ultimately
    responsible for SABRS security, it should be aware of the password parameters
    and ensure that passwords are robust.


General Support System Controls

    The PMO did not identify security controls implemented by other responsible
    parties because personnel did not believe those security controls were also their
    responsibility. PMO personnel stated that DISA was responsible for security over
    the general support system used by SABRS. This security includes physical and
    system software controls and a minimum level of recording or reviewing system
    activity. PMO personnel stated they did not need to know this information or
    obtain any assurances regarding the effectiveness of controls used by DISA, the
    organization that maintains the SABRS general support system. According to
    NIST, if an agency runs a major application on another organization’s general
    support system, the agency should request a copy of the other organization’s
    general support system security plan. In addition, DoD requires that all
    interconnected DoD information systems be managed to ensure that one system is
    not undermined by vulnerabilities of interconnected systems. The PMO did not
    obtain assurances of security controls over the mainframe by obtaining the
    general support system security plan as recommended by NIST. The PMO also
    did not obtain the DISA Statement of Auditing Standards No. 70 report. The
    Statement on Auditing Standards No. 70 report is used to provide an opinion on
    the adequacy of the internal controls over information processed by a service
    organization.

    The PMO should be aware of types of controls in place or at least obtain the
    service organization security plan to determine if a security function performed
    by other responsible parties ensures that the security environment of the SABRS
    is not undermined.




                                        17
TASO Account Identification

    An accurate list of all TASO account holders was not available because the PMO
    did not periodically reconcile the TASO appointment letters with actual TASO
    account holders identified within SABRS. SABRS TASOs create and assign user
    IDs and set user privileges. DFAS requires that TASOs be designated in an
    appointment letter.

    We obtained three separate documents to determine SABRS TASO account
    holders:

           •   a SABRS generated user ID list,

           •   a list of TASO user IDs maintained by the PMO office, and

           •   TASO appointment letters maintained by the DFAS Kansas City
               Technology Services Organization.

    The SABRS TASO account holders identified on each of these three documents
    did not agree and the PMO did not reconcile the differences.

    The PMO must regularly reconcile TASO users with the applicable rights
    assigned in SABRS. When an individual is no longer required to perform TASO
    duties, appointment letters should be formally rescinded, along with the rights
    provided to TASOs. The individual is no longer accountable for TASO duties
    after the formal rescission. This practice would institute the principle of least
    privileges, which states that users should be granted access only to the resources
    they need to perform their official functions. By applying this principle, the PMO
    may limit damages resulting from human error or unauthorized use of system
    resources.


Acceptance Testing Documentation for Software Changes

    The PMO did not provide documentation that proved acceptance testing was
    completed prior to issuing software changes to SABRS. SABRS software change
    requests are documented in the Configuration Management Information System.
    We reviewed 17 SABRS software change requests from this system. There was
    no evidence of software acceptance testing by the PMO for any of the 17 requests.
    The PMO did provide us with e-mail documentation stating that the SABRS
    system change was accepted, but it did not provide any documentation that
    supported the type of testing conducted and the corresponding results.




                                        18
    The DFAS Kansas City Technology Services Organization is responsible for
    making the technical system changes to SABRS. Its own SABRS Software
    Configuration Management Plan requires the completion of acceptance testing
    prior to implementing software changes. In addition, its SABRS Software
    Development Plan states the USMC will participate in acceptance testing.

    The PMO stated that it was responsible for performing acceptance testing on
    behalf of the USMC. USMC confirmed that they rely on the PMO to perform
    SABRS acceptance testing. Application users should conduct acceptance testing
    to verify that its requirements were met by the software change. Failure to
    document the results of acceptance testing creates uncertainty that user
    requirements have been met.


Authorized Software

    Unauthorized software had been installed on DFAS Kansas City network
    computers. SABRS security could be compromised by introducing unauthorized
    software to the DFAS Kansas City Enterprise-wide Local Area Network, which
    allows access to SABRS. The PMO did not coordinate with all parties
    responsible for security over SABRS to ensure that unauthorized software was
    restricted from network computers.

    DoD Instruction 8500.2 restricts the use of unauthorized software and firmware
    on its information systems. However, DFAS Kansas City did not adequately
    prohibit users from installing software on their desktop computers.

    DFAS Technology Services Organization personnel stated that because DFAS
    Kansas City is on the Base Realignment and Closure list, the computers located at
    DFAS Kansas City are not locked down using the Desktop Management
    Initiative. The Desktop Management Initiative locks down the computer so the
    user cannot load software or otherwise change the standard configuration. DFAS
    Technology Services Organization did not institute this at DFAS Kansas City
    because, personnel stated, it is not cost effective. However, based upon this
    information, DFAS does have the ability to lock down the computer so personnel
    cannot add unauthorized software. Unauthorized software increases the risk that
    viruses will be introduced, errors can occur, and copyright laws may be violated.
    The PMO should coordinate with the Technology Services Organization to ensure
    these vulnerabilities are minimized to provide an effective security control
    environment for SABRS.




                                       19
Recommendations, Management Comments, and Audit
  Response

    B.1. We recommend the Program Management Office coordinate with
    Defense Information Systems Agency to:

           a. Determine if the Standard Accounting, Budgeting, and Reporting
    System password parameters meet the Joint Task Force Global Networks
    requirements.

         b. Establish password parameters and maintain relevant
    documentation.

    Management Comments. The Director, Information and Technology, DFAS
    concurred. He explained that DISA provides password support over mainframe
    applications using Top Secret software and this software meets the Joint Task
    Force Global Network requirements to the best extent possible.

    Audit Response. Comments from the Director, Information and Technology,
    DFAS are partially responsive. Because DFAS owns SABRS, the PMO should
    be aware of the SABRS password parameters, regardless of who provides
    password support. We request that the Director, Information and Technology,
    DFAS determine and document, for DFAS and the PMO, whether the SABRS
    password parameters meet the Joint Task Force Global Networks requirements.

    B.2. We recommend the Program Management Office:

           a. Identify security controls performed by responsible organizations.

    Management Comments. The Director, Information and Technology, DFAS
    concurred. He stated that DFAS will identify the responsible organizations for
    implementing required security controls and will make these explicitly clear in
    the updated System Security Authorization Agreement. This action is required to
    be completed by June 30, 2008.

    Audit Response. Comments from the Director, Information and Technology,
    DFAS are responsive and no additional comments are required.

          b. Assess the security controls to ensure risks are identified and
    appropriate countermeasures are implemented.

    Management Comments. The Director, Information and Technology, DFAS
    concurred. He stated that assessments are embedded activities in the certification
    and authorization process and the Federal Information Security Management Act
    reporting process.

    Audit Response. Comments from the Director, Information and Technology,
    DFAS are partially responsive. The Director, Information and Technology,


                                        20
DFAS did not identify the proposed actions and completion dates for assessing
the security controls to ensure risks are identified and appropriate
countermeasures are implemented. We request that the Director, Information and
Technology, DFAS provide the corrective actions taken and their associated
implementation dates.

      c. Identify all Terminal Area Security Officer account holders
maintained within the Standard Accounting, Budgeting, and Reporting
System.

      d. Document Terminal Area Security Officer account holders with
formal appointment letters.

       e. Periodically reconcile the appointment letters with Terminal Area
Security Officer account holders identified within the Standard Accounting,
Budgeting, and Reporting System to ensure Terminal Area Security Officer
access is removed on a timely basis.

      f. Rescind appointment letters for personnel who have been relieved
of Terminal Area Security Officer account holder duties.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that DFAS already complies with these recommendations.

Audit Response. Comments from the Director, Information and Technology,
DFAS are partially responsive. The Director, Information and Technology,
DFAS did not identify the proposed actions and completion dates for:

   •   identifying all TASO account holders maintained in SABRS,

   •   documenting TASO account holders with formal appointment letters,

   •   periodically reconciling the appointment letters with TASO account
       holders identified within SABRS to ensure TASO access is removed on a
       timely basis, and

   •   rescinding appointment letters for personnel who have been relieved of
       TASO account holder duties.

We request that the Director, Information and Technology, DFAS provide the
corrective actions taken for these four recommendations and provide the
associated implementation dates.

B.3. We recommend the Program Management Office in conjunction with
the Technology Services Organization and United States Marine Corps
create documentation requirements for acceptance testing including what
documentation needs to be maintained and for how long. This testing




                                   21
documentation should include results of the tests performed in terms of pass
or fail.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that the PMO performs the acceptance testing and
authorizes it for release. Once all the software change requests for the release
have passed acceptance testing, the Program Manager signs a memo indicating
that the software can be loaded to the production environment.

Audit Response. Comments from the Director, Information and Technology,
DFAS are partially responsive. The DFAS did not provide documentation from
the PMO that supports the type of testing conducted and the corresponding
results. We request that the Director, Information and Technology, DFAS
formally document requirements for acceptance testing including what
documentation needs to be maintained and for how long.

B.4. We recommend the Program Management Office in conjunction with
the Technology Services Organization:

      a. Provide training to Defense Finance and Accounting Service
Kansas City personnel regarding DoD policies about unauthorized software.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that the DoD-required annual information assurance
awareness training provides personnel with the policies regarding unauthorized
software.

Audit Response. Comments from the Director, Information and Technology,
DFAS are responsive and no additional comments are required.

        b. Determine, document, and implement procedures to identify and
restrict the load of unauthorized software.

Management Comments. The Director, Information and Technology, DFAS
concurred. He stated that the Technology Services Organization maintains all test
plans and test results for the system integration testing. The PMO performs the
acceptance testing and authorizes it for release.

Audit Comments. Comments from the Director, Information and Technology,
DFAS are partially responsive. The comments do not explain how users are
prevented from installing unauthorized software on their computers. We request
that the Director, Information and Technology, DFAS determine, document, and
implement procedures to identify and restrict users from loading unauthorized
software.




                                    22
       C. Defense Finance and Accounting
          Service and Defense Information
          Systems Agency Service Level
          Agreement
       DFAS Accounting Services-Marine Corps and DISA did not have an
       approved Service Level Agreement because DFAS did not sufficiently
       coordinate with DISA to complete the approval process. The absence of
       an approved Service Level Agreement could result in unfulfilled
       responsibilities and unresolved questioned authorities. In addition, neither
       party can be held accountable for not executing the Service Level
       Agreement requirements or for expenses incurred.

The PMO representing DFAS Accounting Services-Marine Corps and DISA did
not fully execute and approve the Service Level Agreement because the PMO and
other designated parties did not sign it. The Execution section of the Service
Level Agreement states, “Official signatures indicate approval to the terms and
conditions of this agreement by the indicated parties. This Service Level
Agreement is effective upon the date of the final signature.” Without official
signatures, the PMO cannot ensure DISA performs necessary security controls.
Also, the PMO cannot hold DISA accountable if DISA fails to provide the
necessary security controls.

NIST 800-35 states that a Service Level Agreement should define the
expectations of performance for each required security control, describe
measurable outcomes, and identify remedies and response requirements for any
identified instance of noncompliance. To ensure SABRS is adequately protected,
the PMO and DISA must have a clear understanding of their respective roles and
responsibilities as discussed in the Service Level Agreement. Therefore, the
Service Level Agreement must be properly approved.




                                    23
Recommendations, Management Comments, and Audit
  Response

    C. We recommend the PMO representing the Defense Finance and
    Accounting Service Accounting Services-Marine Corps coordinate with
    Defense Information Systems Agency to obtain approval of the Service Level
    Agreement by all applicable parties which includes authorized signatures of
    designated individuals.

    Management Comments. The Director, Information and Technology, DFAS
    concurred. The PMO has an annual Service Level Agreement with DISA.

    Audit Response. Comments from the Director, Information and Technology,
    DFAS are partially responsive. The comments do not address whether the
    Service Level Agreement is signed. The Service Level Agreement is not effective
    until the date of the final signature. We request that the Director, Information and
    Technology, DFAS obtain approval of the Service Level Agreement by all
    applicable parties, which includes authorized signatures of designated individuals,
    and provide us a copy.




                                        24
Appendix A. Scope and Methodology
   We conducted this audit from February 2006 through January 2008 in accordance
   with generally accepted government auditing standards. Those standards require
   that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based on our audit objectives.

   We reviewed the general controls over SABRS provided by DFAS Kansas City.
   Specifically, we analyzed the 2003 and 2006 security plans, intrusion detection
   policies, software change request information, and related documentation. We
   interviewed DFAS Kansas City personnel to determine what general controls
   were in place over SABRS. We reviewed the FY 2005 FISMA report prepared
   by DFAS.

   We used the Government Accountability Office Federal Information System
   Controls Audit Manual, January 1999, to develop the procedures performed
   during this audit. At the beginning of the audit we provided a list of required audit
   documentation needed to perform the audit work outlined in the Federal
   Information Systems Control Audit Manual. We did not receive all the
   documentation.

   Our audit scope for general control testing was limited because not all
   documentation was made available during the audit. SABRS PMO management
   stated this information was not under their direct control and they did not provide
   this information. We were unable to assess the adequacy of the following general
   controls over SABRS:

          •   security controls necessary to address the hiring, transferring,
              termination, work performance requirements, and other personnel
              issues;

          •   controls to address the verification of appropriate training for
              employees designated with specialized duties or advanced system
              privileges;

          •   controls necessary to determine whether system administrators can
              identify all authorized users and their corresponding authorized access;

          •   controls used for authorizing emergency and temporary access;

          •   controls necessary to determine whether access to system data is
              appropriate as determined by the data owner; and,


                                        25
       •   policies and controls necessary to segregate incompatible duties.

Without effective general controls, application controls may be circumvented or
modified. Based upon the magnitude of general control weaknesses, we did not
perform audit work on the application controls within SABRS.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
covers the protection of the Federal Government’s information systems.

No prior coverage has been conducted on general controls over SABRS during
the last 5 years.




                                    26
Appendix B. Security Plan Comparison
The table below provides the areas of SABRS security plan noncompliance with DITSCAP and NIST. This is further detail of
weaknesses identified in finding B.

     DITSCAP and NIST                 Met                                                 Met
       Requirements               Requirement                                         Requirement
                                    in 2003?      Security Plan 2003 Explanation        in 2006?     Security Plan 2006 Explanation
MISSION DESCRIPTION AND
SYSTEM IDENTIFICATION
System Description - Describe     No             Security relevant features were      No            Security relevant features were
the system focusing on the                       not addressed in security plan.                    not addressed in security plan.
information security relevant
features of the system.
System Criticality                No             The security plan labeled SABRS      No            The security plan labeled SABRS
                                                 system criticality as a Mission                    system criticality as a Mission
                                                 Assurance Category III system,                     Assurance Category III system,
                                                 although the COOP delineated the                   although the COOP delineates the
                                                 system as Priority 1.                              system is Priority 1.
ENVIRONMENT
DESCRIPTION
Physical Security                 No             The security plan did not list       No            The security plan did not list
                                                 physical security controls for                     physical security controls for
                                                 Defense Enterprise Computing                       DFAS Kansas City.
                                                 Center St. Louis.
Administrative Issues             No             The security plan did not list the   No            The security plan did not list the
                                                 administrative security. For                       administrative security. For
                                                 example, the separation of duties                  example, the separation of duties
                                                 is not stated or explained.                        is not stated or explained.


                                                              27
     DITSCAP and NIST                Met                                                 Met
       Requirements              Requirement                                         Requirement
                                   in 2003?     Security Plan 2003 Explanation         in 2006?     Security Plan 2006 Explanation
Personnel                        Yes           The security plan stated the          No            The security plan did not state the
                                               number and type of personnel                        number and type of personnel
                                               required to operate and maintain                    required to operate and maintain
                                               SABRS.                                              SABRS.
Threat Description               No            The security plan does not            No            The security plan does not
                                               describe the likelihood of threats                  describe the likelihood of threats
                                               and how those threats are                           and how those threats are
                                               mitigated.                                          mitigated.
SYSTEM ARCHITECTURAL
DESCRIPTION
National and DoD Security        Yes           The security plan lists applicable    No            The security plan did not list all
Requirements                                   requirements.                                       applicable DoD and OMB
                                                                                                   requirements.
Governing Security Requisites    No            The security plan did not stipulate   No            The security plan did not stipulate
                                               the SABRS specific or DFAS                          the SABRS specific or DFAS
                                               policies and procedures                             policies and procedures
Security Concept of Operations   No            The security plan did not describe    No            The security plan did not describe
                                               how the objectives of the security                  how the objectives of the security
                                               concept of operations would be                      concept of operations would be
                                               accomplished.                                       accomplished.
Network Connection Rules         No            The security plan did not identify    No            The security plan did not identify
                                               the network connection rules.                       the network connection rules.
Configuration and Change         No            The security plan did not identify    No            The security plan did not identify
Management Requirements                        the configuration and change                        the configuration and change
                                               management requirements.                            management requirements.
ORGANIZATIONS AND
RESOURCES


                                                            28
     DITSCAP and NIST                Met                                                Met
       Requirements              Requirement                                        Requirement
                                   in 2003?     Security Plan 2003 Explanation        in 2006?    Security Plan 2006 Explanation
Organizations                    Yes           The security plan identified other   No            The security plan did not identify
                                               organizations and specific                         a DISA representative for the
                                               individuals for the certification                  certification and accreditation
                                               and accreditation process.                         process.
Resources                        No            All members of the certification     No            The security plan did not identify
                                               and accreditation team were not                    a DISA representative for the
                                               independent of the system                          certification and accreditation
                                               developer or project manager.                      process.
Other Supporting Organizations   Yes           The security plan identified other   No            The security plan did not identify
                                               organization or working groups                     a DISA representative for the
                                               that were supporting the                           certification and accreditation
                                               certification and accreditation                    process.
                                               process.
DITSCAP PLAN

Information System               Yes           The security plan identified         No            The security plan provided details
characteristics                                SABRS characteristics.                             of SABRS characteristics, but the
                                                                                                  security level changed from 2003
                                                                                                  to 2006 without an explanation
                                                                                                  why this certification level was
                                                                                                  changed.
Tasks and Milestones             No            The security plan did not identify   No            The security plan did not identify
                                               tasks and milestones.                              who has the responsibility for the
                                                                                                  activity and completion criteria
                                                                                                  task.
Roles and Responsibilities       No            The security plan did not identify   Yes           The security plan identified roles
                                               roles and responsibilities.                        and responsibilities.


                                                            29
    DITSCAP and NIST         Met                                                Met
      Requirements       Requirement                                        Requirement
                           in 2003?     Security Plan 2003 Explanation        in 2006?     Security Plan 2006 Explanation
APPENDIX D: SYSTEM       No            The security plan did not describe   No            The security plan did not describe
CONCEPT OF OPERATIONS                  how the SABRS operated.                            how the SABRS operated.
APPENDIX E:              No            The security plan did not identify   No            The security plan did not identify
INFORMATION SYSTEM                     and describe the security policies                 and describe the security policies
SECURITY POLICY                        of SABRS.                                          of SABRS.
APPENDIX F: SECURITY     No            The security plan did not identify   No            The security plan did not identify
REQUIREMENTS AND/OR                    how SABRS was compliant with                       how SABRS was compliant with
REQUIREMENTS                           security requirements.                             security requirements.
TRACEABILITY MATRIX
APPENDIX H: SECURITY     No            The security plan did not            Yes           The security plan documented
TEST AND EVALUATION                    document security test and                         security test and evaluation plan
PLAN AND PROCEDURES                    evaluation plan and procedures or                  and procedures.
                                       the results of that testing.
APPENDIX I: APPLICABLE   Yes           The security plan identified where   No            The security plan identified a
SYSTEM DEVELOPMENT                     the system development artifacts                   letter that was supposed to
ARTIFACTS OR SYSTEM                    and system documents were                          identify a risk mitigation currently
DOCUMENTS                              located.                                           in progress, but the letter was not
                                                                                          there.
APPENDIX J: SYSTEM       No            The security plan did not identify   Yes           The security plan identified
RULES OF BEHAVIOR                      any SABRS rules of behavior.                       SABRS rules of behavior.
APPENDIX K: INCIDENT     No            The security plan did not identify   No            The security plan did not identify
RESPONSE PLAN                          monitoring for intrusions within                   monitoring for intrusions within
                                       SABRS or investigating                             SABRS or investigating
                                       intrusions.                                        intrusions.




                                                    30
     DITSCAP and NIST           Met                                                Met
       Requirements         Requirement                                        Requirement
                              in 2003?     Security Plan 2003 Explanation        in 2006?     Security Plan 2006 Explanation
APPENDIX M: PERSONNEL       No            The security plan did not address    No            The security plan did not address
CONTROLS AND                              the personnel and technical                        the personnel and technical
TECHNICAL SECURITY                        security controls for SABRS.                       security controls for SABRS.
CONTROLS
APPENDIX N: MOA -           No            The security plan did not include    Yes           The security plan identified MOA
SYSTEM INTERCONNECT                       MOA and interconnection                            and interconnection agreements.
AGREEMENTS                                agreements.
APPENDIX O: SECURITY        No            The security plan did not identify   No            The security plan did not identify
EDUCATION, TRAINING,                      security education, training, and                  how the security education,
AND AWARENESS PLAN                        awareness plans.                                   training, and awareness were to be
                                                                                             accomplished.
APPENDIX Q: RESIDUAL    No                The security plan did not identify   No            The security plan did not identify
RISK ASSESSMENT RESULTS                   residual risk assessment results.                  residual risk assessment results.


ADDITIONAL NIST
REQUIREMENTS DITSCAP
DOES NOT REQUIRE


Assignment of Security      No            The security plan did not assign     No            The security plan did not assign
Responsibility                            security responsibilities.                         security responsibilities.
Data Integrity/Validation   No            The security plan did not identify   No            The security plan did not identify
Controls                                  data integrity or data validation                  data integrity or data validation
                                          controls.                                          controls.
MAJOR APPLICATIONS-
TECHNICAL CONTROLS



                                                       31
     DITSCAP and NIST                   Met                                                Met
       Requirements                 Requirement                                        Requirement
                                      in 2003?     Security Plan 2003 Explanation        in 2006?     Security Plan 2006 Explanation
Identification and Authentication   No            The security plan did not identify   No            The security plan did not identify
                                                  the identification and                             the identification and
                                                  authentication controls used by                    authentication controls used by
                                                  SABRS.                                             SABRS.
Audit Trails                        No            The security plan did not identify   Yes           The security plan identified the
                                                  the audit trails for SABRS.                        audit trails for SABRS.




                                                               32
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)



Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Office of Financial Operations, ASN (FM&C)
Assistant Deputy Commandant for Programs and Resources (Fiscal), United States
   Marine Corps



Other Defense Organizations
Director, Defense Finance and Accounting Service
Chief Information Officer, Defense Finance and Accounting Service
Central Site Director, Defense Finance and Accounting Service Kansas City



Non-Defense Federal Organization
Office of Management and Budget




                                          33
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Homeland Security and Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Oversight and Government Reform
 House Subcommittee on Government Management, Organization, and Procurement,
 Committee on Oversight and Government Reform
 House Subcommittee on National Security and Foreign Affairs, Committee on
 Oversight and Government Reform




                                     34
Defense Finance and Accounting Service
Comments




                      35
36
37
38
39
40
41
42
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Edward A. Blair
Cecelia M. Ball
Michael Adams
Beverly Smythe
Denny Moore
Cassondra Lane
Erin Hart
